                                                                UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                             Office of Audits

                                      Middle East Region Operations



                                     Evaluation of Invoices and Payments

                                          for the Embassy Baghdad

                                     Operations and Maintenance Contract


                                          Report Number AUD-MERO-12-43, August 2012




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State or the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                               UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                 UNCLASSIFIED


______________________________________________________________________________
Acronyms
A/LM/AQM         Bureau of Administration, Office of Logistics Management, Office of
                    Acquisitions Management
COR              contracting officer’s representative
OIG              Office of Inspector General
FAH              Foreign Affairs Handbook
FAM              Foreign Affairs Manual
FAR              Federal Acquisition Regulation
O&M              operations and maintenance
PAE              Pacific Architects and Engineers




                                 UNCLASSIFIED

                                                           UNCLASSIFIED



                                                          Table of Contents

Section                                                                                                                                    Page


Executive Summary ........................................................................................................................ 1
 

Background ..................................................................................................................................... 1
 

Evaluation Objective....................................................................................................................... 2
 

Evaluation Results .......................................................................................................................... 2 


    Contracting Officer’s Representative Approved and Paid Contractor Invoices That Included 

    Unallowable and Unsupported Costs ......................................................................................... 2 


Appendices
 

    A. Scope and Methodology ....................................................................................................... 7 

    B. Bureau of Administration Response ................................................................................... 11 


Major Contributors to This Report ............................................................................................... 12 





                                                           UNCLASSIFIED

                                            UNCLASSIFIED


                                         Executive Summary
       The Office of Inspector General (OIG) initiated this evaluation under the authority of the
Inspector General Act of 1978, as amended, to review the Embassy Baghdad operations and
maintenance (O&M) contract awarded to Pacific Architects and Engineers1 (PAE). The
evaluation objective was to determine whether the Department of State (Department) paid PAE
in accordance with authoritative guidance and the contract terms and conditions.

        OIG determined that the contracting officer’s representative (COR) approved
86 contractor invoices, totaling about $4.4 million, that included unallowable and unsupported
costs and costs for goods not delivered. As a result, the Department paid the contractor at least
$2.7 million for costs not authorized and for goods not provided.

        OIG recommended that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), recover the costs for unallowable and
undelivered goods and services. OIG also recommended that A/LM/AQM institute a mechanism
to ensure that the CORs follow Departmental requirements for approving and certifying the
payment of invoices and that the Department conduct a comprehensive review of all invoices to
determine whether additional costs should be recovered. Further, OIG recommended that
A/LM/AQM undertake a review and, if warranted, take appropriate administrative actions
against the CORs who did not follow Departmental guidance concerning contractor invoice
certification and approval.

         In its July 23, 2012, response to the draft report (see Appendix B), A/LM/AQM stated
that it “was not in a position” to concur with the recommendations until it identifies an auditing
firm to assist it with reviewing the issues addressed in the report. OIG does not consider
A/LM/AQM’s comments to be responsive, and the recommendations are considered unresolved.
OIG requests that A/LM/AQM provide additional comments to each of the recommendations.

                                              Background
        On April 30, 2007, A/LM/AQM awarded a $177.0 million contract
(No. SALMEC07D0033) to PAE for O&M services at Embassy Baghdad. The contract is an
indefinite-delivery, indefinite-quantity contract with firm-fixed price and cost-reimbursable
elements consisting of a base year plus 4 option years. The contract was to end on May 1, 2012,
but A/LM/AQM extended it until October 31, 2012, to allow more time to award a new contract.
As of April 30, 2012, the total contract value had increased to about $258 million.

        At the time of contract award, the embassy compound consisted of 27 buildings, one
service station, and eight guard towers on approximately 64 acres of the 104 total acres allocated
to the U.S. Government by the Government of Iraq. As of March 2012, the embassy compound
had increased in size to 38 buildings and 16 guard towers. Because municipal services have not
been available from the city of Baghdad, the embassy compound has two power plants, seven
water wells, water holding tanks, and a water treatment facility.

1
 The former Pacific Architects and Engineers is now a wholly owned subsidiary of Lindsay Goldberg, LLC, doing
business as PAE.
                                                 1
                                            UNCLASSIFIED
                                               UNCLASSIFIED


       The Embassy Baghdad O&M contract requires PAE to provide, on a 24-hours-a-day, 7-
days-a-week basis, engineering, management, logistics, and administrative services to operate
and maintain the embassy compound and its support facilities. Specific services provided
include building maintenance; janitorial, landscaping, and trash removal services; building
automation system monitoring; service desk operations; construction and preventive
maintenance; life-support services; elevator servicing; pool maintenance; parts and material
purchasing and storage; and pest control. The contract also requires PAE to maintain man
camps2 for its staff and the life support3 for those man camps.

       The A/LM/AQM contracting officer, who is located in Washington, DC, has overall
responsibility for contract administration and oversight of the Embassy Baghdad O&M contract.
The contracting officer appoints the CORs, who are responsible for providing oversight of the
contractor’s day-to-day operations. Those responsibilities include monitoring the contractor's
technical progress, inspecting and accepting the work on behalf of the U.S. Government,
ensuring that the contractor is meeting the contract terms and conditions, and reviewing and
approving the contractor’s vouchers and invoices. The COR for the Embassy Baghdad O&M
contract is the Senior Facilities Manager at Embassy Baghdad.

                                          Evaluation Objective
       The evaluation objective was to determine whether the Department paid the Embassy
Baghdad O&M contractor in accordance with authoritative guidance and the contract terms and
conditions.

                                            Evaluation Results

Contracting Officer’s Representative Approved and Paid Contractor Invoices
That Included Unallowable and Unsupported Costs
       The COR approved 864 PAE invoices, totaling about $4.4 million, that included
unallowable and unsupported costs and costs for goods not delivered. Specifically, the COR
erroneously approved the following:

                80 invoices containing about $2.7 million in unallowable transportation costs,

                6 invoices containing about $1.7 million in unsupported reimbursable costs, and

                2 invoices containing about $34,000 in costs for goods not delivered.


2
  Man camps consist of communal housing, bathrooms, and other support facilities utilizing modular temporary 

structures provided to contractor personnel. 

3
  The term “life support” within the context of this contract refers to those essential services necessary for 

maintaining habitable living quarters, such as water, sewer, electric power, heating, cooling, and ventilation.

4
  Although 80 invoices contained unallowable transportation costs, six invoices contained unsupported reimbursable 

costs, and two invoices contained costs for goods that were not delivered, the total number of erroneously approved 

invoices was 86 rather than 88. This is the case because two invoices, No. PAE-IRAQ-078 and No. PAE-IRAQ-87,

had both unallowable transportation costs and unsupported reimbursable costs. 

                                                    2
                                               UNCLASSIFIED
                                             UNCLASSIFIED


        The invoices were erroneously approved because the COR did not verify the contractor’s
invoices against supporting documentation and did not ensure that the contractor billed for only
valid contract costs. As a result, the Department paid the contractor at least $2.7 million for
goods and services that were unallowable or not provided. Those funds should be recovered
from the contractor, and the Department should conduct a comprehensive review of all invoices
and supporting documentation to determine whether additional funds should be recovered.

Invoice Approval Requirements

        Department requirements for approving contractor invoices are contained in the Foreign
Affairs Handbook5 (FAH), the contract, and the Overseas Contracting and Simplified Acquisition
Guidebook.6 The FAH states that a COR should determine whether the charges billed are
reasonable, allocable, and allowable. To make that determination, the COR should verify
calculations, unit prices, labor hours and categories, supplies and equipment, and other backup
material such as time cards. In addition to the FAH requirements, section G of the O&M
contract requires the contractor to submit supporting documentation for the reimbursable
material and equipment costs. According to Chapter 7 of the Overseas Contracting and
Simplified Acquisition Guidebook, the COR7 is required to reject payment if the invoice does
not match the terms contained within the contract and requires that the COR guard against
contractor attempts to add additional amounts to invoices.

Unallowable and Unsupported Costs

        The COR approved 86 PAE invoices, totaling about $4.4 million, that included
unallowable and unsupported costs and costs for goods not delivered. Specifically, OIG
identified 80 invoices that contained about $2.7 million in unallowable transportation costs, six
invoices that contained about $1.7 million in unsupported reimbursable costs, and two invoices
that contained about $34,000 in costs for goods not delivered. (See “Sampling Methodology and
Results” section in Appendix A for testing details.)

        Unallowable Transportation Costs

       The COR approved 80 PAE invoices that contained about $2.7 million in unallowable
transportation costs. According to section H of the Embassy Baghdad O&M contract, PAE was
required to bear the cost of all material transportation charges in the performance of the contract.
Additionally, subsequent contract modifications specify that the transportation costs are free on
board (FOB) – destination, which means that the seller, PAE, was responsible for the
transportation costs and remained responsible for the materials until the buyer, the Department,
took possession of the materials. However, PAE improperly charged the Department for
transporting materials and equipment, including compressors, hoists, and replacement pump


5
  14 FAH-2, “Contracting Officer’s Representative Handbook.” 

6
  The Overseas Contracting and Simplified Acquisition Guidebook is incorporated by reference into the Foreign 

Affairs Manual (FAM), 14 FAM 213, “Acquisition Regulations and Directives.”

7
  This section of the Guidebook is addressed to the Financial Management Officer. However, for the Embassy

Baghdad O&M contract, the COR located in Baghdad is responsible for the review and approval of invoices. The

COR forwards approved invoices to the Financial Management Officer to initiate payment to the contractor. 

                                                  3
                                             UNCLASSIFIED
                                       UNCLASSIFIED


motors, which were used in the performance of the contract. As such, the transportation portion
of the cost was not reimbursable under the contract terms.

       Unsupported Reimbursable Costs

        The COR approved six invoices that contained about $1.7 million in unsupported
reimbursable costs. The reimbursable portion of the contract allows the contractor to bill for
certain materials and equipment used during the course of the contract. The contract requires
that the contractor provide supporting documentation to enable the COR to verify that the cost
relates to work completed and goods delivered during the period invoiced. OIG identified about
$1.7 million of reimbursable costs for items such as vehicles, equipment, spare parts and
materials, medical supplies and maintenance, and repair work orders that did not have supporting
documentation. Therefore, OIG could not verify whether those costs were allowable and
reasonable under the contract terms.

       Undelivered On-the-Job Training Handbooks

        The COR approved two invoices that contained about $34,000 for on-the-job training
handbooks that were never provided to the Government. According to PAE officials, the
contract line item for the handbooks was never exercised, and PAE was therefore not obligated
to provide the handbooks. OIG verified that the contract line item was not exercised; however,
PAE billed the Department for providing the handbooks in option years 1 and 2 of the contract.
OIG found evidence that PAE intended to issue a credit to the Department for these funds on a
later invoice, but OIG did not find additional evidence indicating PAE had done so.

Insufficient Review of Contractor Invoices

        The COR approved contractor invoices for payment without verifying supporting
documentation and ensuring that the contractor billed only valid contract costs. The COR did
not verify that the costs were allowable under the contract terms and conditions and did not
require the contractor to provide supporting documentation to substantiate the reimbursable
costs.

        According to the COR, the invoice review consisted of mathematical checks for accuracy
but did not include a determination of the validity of the costs claimed or a determination of
whether invoiced amounts accurately reflected the work performed. In reviewing vouchers, the
COR did not request sufficient information from the contractor to determine whether the charges
billed were reasonable, allocable, and allowable. To make that determination, the COR should
have verified calculations, unit prices, labor hours, and categories and requested vender invoices
for supplies and equipment and other supporting documents, such as time cards for labor
charges.

        A/LM/AQM should ensure that the COR is following Departmental invoice approval and
certification procedures to preclude the payment of similar unallowable costs during the




                                            4
                                       UNCLASSIFIED
                                                UNCLASSIFIED


remainder of the contract. The Federal Acquisition Regulation8 (FAR) also permits the
contractor to submit a claim for valid expenses after the period of performance ends. Therefore,
there is sufficient time for the contracting officer to conduct a more detailed review of
reimbursable costs. To validate those costs, the contracting officer should request supporting
vendor invoices and determine whether the invoices were for valid expenses that related to work
PAE performed within the respective billing period.

Unallowable and Unsupported Costs Should Be Recovered

        OIG identified about $2.7 million paid to the contractor for costs not authorized and for
goods not provided. Those costs should be recovered from the contractor. In addition, the
contracting officer should perform a comprehensive review of all invoices to determine whether
the costs are allowable and fully supported, to include the $1.7 million in costs identified by the
OIG that lacked adequate support. If those costs are not allowable and fully supported, those
costs should also be recovered from the contractor.

         Recommendation 1. OIG recommends that the Bureau of Administration, Office of
         Logistics Management, Office of Acquisitions Management, direct the contracting officer
         to conduct a comprehensive review of all contractor invoices before the Embassy
         Baghdad operations and maintenance contract is closed to ensure that all unallowable
         transportation costs, including the approximately $2.7 million identified in this report, are
         recovered from the contractor.

         Recommendation 2. OIG recommends that the Bureau of Administration, Office of
         Logistics Management, Office of Acquisitions Management, direct the contracting officer
         to conduct a comprehensive review of all contractor invoices before the Embassy
         Baghdad operations and maintenance contract is closed to determine whether all goods
         paid for were in fact delivered. If the goods were paid for, all such payments for
         undelivered goods should be recovered from the contractor, including the approximately
         $34,000 identified in this report.

         Recommendation 3. OIG recommends that the Bureau of Administration, Office of
         Logistics Management, Office of Acquisitions Management, direct the contracting officer
         to conduct a comprehensive review of all contractor invoices before the Embassy
         Baghdad operations and maintenance contract is closed to determine whether the
         contractor submitted adequate supporting documentation for all reimbursable costs, to
         include the $1.7 million identified in this report. If not, the contracting officer should
         request supporting documentation from the contractor and determine whether the costs
         were allowable under the contract terms. If the reimbursable costs cannot be supported
         or are not allowable under the terms of the contract, the costs should be recovered from
         the contractor.



8
 FAR 33.206 (a) and (b) allows both the Government and the contractor to submit claims within 6 years after
accrual of a claim. Accrual of a claim means the date when all events that fix the alleged liability by either the
Government or the contractor were known or should have been known.
                                                     5
                                                UNCLASSIFIED
                                UNCLASSIFIED


Recommendation 4. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, institute a mechanism to
ensure that the contracting officer’s representatives follow all appropriate Federal and
Department of State guidance for approving and certifying the payment of invoices.

Recommendation 5. OIG recommends that the Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, undertake a review and, if
warranted, take appropriate administrative actions against the contracting officer’s
representatives who did not follow Department of State guidance concerning the
contractor invoice certification and approval process.

Management Response: The Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management, stated that it “was not in a position” to
concur with the recommendations until it identifies an auditing firm to assist it with
reviewing the issues addressed in the report. The Bureau also stated that because of end
of year closeout, it does not anticipate the review to be completed for 3 months.

OIG Reply: OIG does not consider the Bureau’s comments to be responsive, and the
recommendations are considered unresolved. OIG requests that the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management,
provide additional comments for each of the recommendations.




                                     6
                                UNCLASSIFIED
                                            UNCLASSIFIED



                                                                                                Appendix A
                                      Scope and Methodology
       The Office of Inspector General (OIG) initiated this evaluation under the authority of the
Inspector General Act of 1978, as amended, to determine whether the Department of State
(Department) paid the Embassy Baghdad operations and maintenance contractor Pacific
Architects and Engineers1 (PAE) in accordance with authoritative guidance and the contract
terms and conditions.

        To determine whether the contractor was paid in accordance with the contract terms and
conditions, OIG met with officials from the Department’s Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management (A/LM/AQM); personnel from
sections of Embassy Baghdad, including the facilities management office; and PAE management
and service technicians. In Baghdad, OIG reviewed program documents, financial reporting
data, invoices, and vouchers. In Washington, DC, OIG examined the physical contract files
located at A/LM/AQM.

        OIG performed this evaluation from November 2010 to July 2012; however, the
evaluation was suspended from February–June 2011 to address other priority projects. The
evaluation was conducted in accordance with the Quality Standards for Inspection and
Evaluation, issued in January 2011 by the Council of the Inspectors General on Integrity and
Efficiency. OIG believes that the evidence obtained provides a reasonable basis for the findings
and conclusions based on the evaluation objective.

Use of Computer-Processed Data

       OIG did not require the use of any computer-processed data in the execution of the
sampling plans or in the conduct of this evaluation.

Prior OIG Report

        In its March 2007 report, Independent Accountant’s Report Agreed-Upon Procedures on
PAE Government Services, Inc., Invoices Under Contract No. SLM-AQM-03-C0033
September 14, 2004, through November 14, 2005 (AUD/CG-07-14), OIG concluded that
cumulative totals on some invoices contained mathematical errors but that the errors did not
result in underbillings or overbillings.

Work Related to Internal Controls

       OIG performed steps to assess the adequacy of internal controls related to the areas
evaluated. For example, OIG gained an understanding of and tested the controls for reviewing
and approving contractor invoices for payment. Significant deficiencies identified during the
evaluation are reported in the “Evaluation Results” section of the audit report.


1
 The former Pacific Architects and Engineers is now a wholly owned subsidiary of Lindsay Goldberg, LLC, doing
business as PAE.
                                                 7
                                            UNCLASSIFIED
                                              UNCLASSIFIED


Sampling Methodology and Results

       OIG conducted an evaluation of contract costs to determine whether the items of costs
were reasonable, allowable, and allocable under applicable authoritative guidance and contract
terms. From the 179 invoices paid from October 1, 2007, to September 30, 2010, under the
Embassy Baghdad O&M contract, OIG tested selected expenditures and found that the
contracting officer’s representative had approved 862 PAE invoices that included unallowable
and unsupported costs and costs for goods not delivered. Specifically, the COR erroneously
approved the following:

                 80 invoices containing about $2.7 million in unallowable transportation costs,

                 6 invoices containing about $1.7 million in unsupported reimbursable costs, and

                 2 invoices containing about $34,000 in costs for goods not delivered.

       To determine the transportation costs billed to the contract for the period under review,
OIG obtained the detailed billing sheets PAE used to prepare the 179 invoices and examined
each for transportation-related expenses billed to the Department. In total, OIG identified
80 invoices containing about $2.7 million in unallowable transportation costs, as shown in
Table 1.

Table 1. Unallowable Transportation Costs
                                        Unallowable                                               Unallowable
     Item                              Transportation         Item                               Transportation
    Number       Invoice Number           Amount             Number        Invoice Number           Amount
      1      PAE-IRAQ-002R                  $18,507.93          41       PAE-IRAQ-177                 $15,202.99
      2      PAE-IRAQ-009                    20,429.99           42      PAE-IRAQ-179R                    880.00
      3      PAE-IRAQ-017                       650.00          43       PAE-IRAQ-180                  17,568.95
      4      PAE-IRAQ-021                    64,418.74          44       PAE-IRAQ-181                  11,254.07
      5      PAE-IRAQ-033                    19,985.88          45       PAE-IRAQ-183                  31,753.56
      6      PAE-IRAQ-036                      4,000.00         46       PAE-IRAQ-185                  33,079.70
      7      PAE-IRAQ-042                      1,005.87         47       PAE-IRAQ-187                    3,389.24
      8      PAE-IRAQ-065                    54,128.70          48       PAE-IRAQ-189                  93,777.96
      9      PAE-IRAQ-067                      7,850.00         49       PAE-IRAQ-192                    3,452.70
      10     PAE-IRAQ-071                      3,999.00         50       PAE-IRAQ-197                    3,462.46
      11     PAE-IRAQ-078                    88,940.88           51      PAE-IRAQ-198                    1,818.49
      12     PAE-IRAQ-079                      7,235.38         52       PAE-IRAQ-199                  15,169.55
      13     PAE-IRAQ-086                       800.00          53       PAE-IRAQ-204                  41,547.75


2
  Although 80 invoices contained unallowable transportation costs, six invoices contained unsupported
reimbursable costs, and two invoices contained costs for goods that were not delivered, the total number of
erroneously approved invoices is 86 rather than 88. This is the case because two of the invoices, No. PAE-IRAQ-
078 and No. PAE-IRAQ-87, had both unallowable transportation costs and unsupported reimbursable costs.

                                                   8
                                              UNCLASSIFIED
                                        UNCLASSIFIED



   14     PAE-IRAQ-087                   1,423.52         54      PAE-IRAQ-205               9,736.07
   15     PAE-IRAQ-091                   6,670.48         55      PAE-IRAQ-210               5,000.00
   16     PAE-IRAQ-097                   3,850.00         56      PAE-IRAQ-211R            39,541.66
   17     PAE-IRAQ-100                  15,370.00         57      PAE-IRAQ-212             27,676.12
   18     PAE-IRAQ-103                  52,856.27         58      PAE-IRAQ-218            296,071.32
   19     PAE-IRAQ-104                   3,076.75         59      PAE-IRAQ-220               1,450.00
   20     PAE-IRAQ-105                  46,775.08         60      PAE-IRAQ-225                150.00
   21     PAE-IRAQ-109                 102,800.63         61      PAE-IRAQ-226               3,243.86
   22     PAE-IRAQ-110                     560.00         62      PAE-IRAQ-227R            51,467.89
   23     PAE-IRAQ-112                  89,115.78         63      PAE-IRAQ-228               3,537.00
   24     PAE-IRAQ-116                    (21.48)         64      PAE-IRAQ-231                150.00
   25     PAE-IRAQ-117                  70,850.08         65      PAE-IRAQ-235                600.00
   26     PAE-IRAQ-121                  47,247.77         66      PAE-IRAQ-238             16,675.00
   27     PAE-IRAQ-124/125               6,087.53         67      PAE-IRAQ-239               3,420.00
   28     PAE-IRAQ-126                  12,099.49         68      PAE-IRAQ-243             41,858.48
   29     PAE-IRAQ-129                 188,950.97         69      PAE-IRAQ-245               1,250.00
   30     PAE-IRAQ-139                     585.00         70      PAE-IRAQ-249             14,795.65
   31     PAE-IRAQ-148                  62,005.39         71      PAE-IRAQ-250                272.29
   32     PAE-IRAQ-163                 (1,781.83)         72      PAE-IRAQ-251            115,228.49
   33     PAE-IRAQ-153                  48,890.69         73      PAE-IRAQ-252                950.00
   34     PAE-IRAQ-157                  38,726.44         74      PAE-IRAQ-253               2,370.43
   35     PAE-IRAQ-161                      50.00         75      PAE-IRAQ-257             81,032.37
   36     PAE-IRAQ-164                  91,965.65         76      PAE-IRAQ-258               1,148.25
   37     PAE-IRAQ-172                   4,631.78         77      PAE-IRAQ-262R               400.00
   38     PAE-IRAQ-173                  99,495.84         78      PAE-IRAQ-265            148,258.73
   39     PAE-IRAQ-174                  76,335.33         79      PAE-IRAQ-266             13,681.46
   40     PAE-IRAQ-176                  15,031.39         80      PAE-IRAQ-272               5,000.00
                                              Total Unallowable Transportation Cost     $2,532,923.41
                                                       Contractual Markup of 6.65%            6.65%
                             Total Transportation Related Cost Inclusive of 6.65% Fee   $2,701,362.82

       To determine the unsupported reimbursable costs, OIG judgmentally sampled
60 transactions from six invoices. Specifically, this sampling process entailed first reviewing the
179 invoices and randomly selecting the six invoices, which contained $5,310,742.21 in
reimbursable costs. Next, within the six invoices, OIG selected 60 transactions for review based
on factors such as indicators of cost duplication and large disbursements. From the
60 transactions, OIG identified 14 unsupported disbursements, totaling about $1.7 million, as
shown in Table 2.




                                             9
                                        UNCLASSIFIED
                                       UNCLASSIFIED


Table 2. Unsupported Reimbursable Costs
                                                                     Transaction
  Item      Invoice Number        Task       Account Category            Date        Amount
    1        PAE-IRAQ-005      00-2600-00    MATERIAL               5/14/2008         $12,700.00
                               00-2600-00    ODC                    5/14/2008             6,000.00
    2       PAE-IRAQ-058       10-2600-00    MATERIAL               1/21/2009          111,560.00
                               10-2600-00    MATERIAL               1/22/2009          111,560.00
                               10-2600-00    MATERIAL               1/21/2009          311,475.00
                               10-2600-00    MATERIAL               1/22/2009          311,475.00

    3       PAE-IRAQ-070      10-3700-00     MATERIAL               5/12/2008          131,996.25
                              10-2600-00     MATERIAL               3/14/2009           84,640.00
                              10-2600-00     MATERIAL               3/21/2009           55,800.00
    4       PAE-IRAQ-078      10-2600-00     MATERIAL               4/4/2009           333,756.45
                              10-2600-00     MATERIAL               4/28/2009           90,000.00
    5       PAE-IRAQ-087      20-5400-00     TRAVEL                 5/14/2009              310.00
    6       PAE-IRAQ-093      20-5400-00     LABOR                  6/5/2009              9,375.35
                              20-2600-00     EQUIPMENT              6/20/2009             1,300.00
                                                        Unsupported Sample Items     $1,571,948.05
                                                   Contractual Markup of 6.65%             6.65%
                                  Total Unsupported Costs Inclusive of 6.65% Fee     $1,676,482.60


       To determine the goods that were not delivered but that were paid for, OIG compared
documentation supporting goods that were received by Embassy Baghdad with information on
the 179 invoices. Through this comparison, OIG found that Embassy Baghdad was billed
$34,481 for on-the-job training handbooks that had never been delivered, as detailed in Table 3.

Table 3. Cost of Goods Not Provided
                                                                     Transaction
  Item      Invoice Number        Task       Account Category           Date         Amount
    1      PAE-IRAQ-111        10-4300-00    Material                 9/15/2009       $15,317.00
    2      PAE-IRAQ-171R       20-4300-00    Material                 7/01/ 2010        17,014.19
                                                         Cost of Undelivered Items     $32,331.19
                                                   Contractual Markup of 6.65%             6.65%
                                   Total Undelivered Costs Inclusive of 6.65% Fee      $34,481.21




                                            10
                                       UNCLASSIFIED
                                  UNCLASSIFIED



                                                                                              Appendix B




)'1J:MORANLILYI

TO:           OIGIAUD - r::,'eIY1 Klem .. ' ''''

FlWM          AlLM - CaL."trine Ebert-Gr"V
                                              ,"j     \

SIIBJEl.:T    Llndl K<pOI' 0" Evah",',<>n of Invole,", and P,yr",n's for the limb.""l'
              Ilaghdad ~,..tion, and Main'''''''JlC'' CnnlnOL:\

       n, .... k you f".- the <>ppcrtuni', \" review and oommcnt on th e drnft "'port
a:ldr""",ng the Evaluation of Invo'ees:md P"ymcru.• br tho- Cmbas,y Ba.cl>dad
O!,<,fatim.. and l>-l"inl<nano< C"ntrac1. Jot,n S"",,cr i~ the pcin. <Of eon"",t on thr.
Audit and hr can be reached~, 70;·815-6845.

        The Offie", o[ A~'IUi'ilion, M~na~em"'" ,A(,lM) ;>I.m Ie> add", .. the i~",.,.
rai..,d in the repor1'~ li,'~ I{ccommcnd"tion •. AQ'\l i . c"",,,,<ly in tho-l'lUlning.
"'ag~' oridcnljf~in~ an :mditinE firm to ""i,1 with =n:hing the ~ifc is ......
addr=d; ~n ... ",'cr, ,,~ "'" no! in a I""'i'i,,,, In indio"'" that "'~ concur with the
fu.~mttl.,.,d"tion.~ unlil 1\())'I ' , p<dimin.or: ."aSy" < i. completed. With !he .-nJ
of th~ li"",,1 ycar .?p<oodti..'1g (mc:mth or Sq'l~nll>er dffiicau.d to prOCUre..,,,,,l,) .
...·C ,unicira'" tho, it will t.aLc ~pproximarely three month. 10 comp lcl~ thi. ",view.




                                       11 

                                  UNCLASSIFIED
                                     UNCLASSIFIED



Major Contributors to This Report

Carol Gorman, Deputy Assistant Inspector General
Middle East Region Operations Directorate
Office of Audits

Gerald P. Montoya, Director
Middle East Region Operations Directorate
Office of Audits

Kenneth A. Leonard, Auditor
Middle East Region Operations Directorate
Office of Audits




                                          12
                                     UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

UNCLASSIFIED





UNCLASSIFIED

